September 17, 2010

LINDA J. WELCH
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Southeast Area Processing and Distribution Center
         Consolidations (Report Number EN-AR-10-006)

This report presents the results of our audit of Southeast Area Processing and
Distribution Center1 (P&DC) consolidation opportunities (Project Number
10XG024EN000). Our objective was to assess opportunities for full P&DC
consolidations2 in the Southeast Area. This self-initiated audit addresses strategic,
financial, and operational risks. See Appendix A for additional information about this
audit.

Because of external factors such as a severe economic downturn and electronic
diversion of mail, the Postal Service has experienced a substantial decline in mail
volume. As a result, excess capacity is growing in the mail processing network.
Pursuing full consolidation opportunities would help eliminate excess capacity and
generate cost savings.

Conclusion

Southeast Area management has aggressively pursued partial P&DC consolidations,
but none that resulted in a facility closure. Between July 1, 2008, and July 1, 2010, they
completed eight partial consolidations and approved one additional consolidation for
implementation. Independent modeling and extensive coordination with management
validated many of the consolidations either implemented or approved, but also indicated
the potential for a full consolidation opportunity at the Daytona P&DF. Additionally,
significant excess space exists for consolidation or alternate use at the Birmingham
P&DC. As a result of this proposed full consolidation and use of excess space, we
estimate the Postal Service could save approximately $34 million over 10 years.




1
  Processing facilities could include Processing and Distribution Facilities (P&DFs) and some Post Offices that
process mail. For consistency we refer to processing facilities as P&DCs.
2
  Full consolidations result in facility closures while partial consolidations transfer operations between facilities, but do
not result in facility closures.
Southeast Area Processing and Distribution                                   EN-AR-10-006
 Center Consolidation


Full Consolidation Opportunities

Opportunities exist for full consolidations in the Southeast Area. While management has
aggressively pursued partial consolidations, they have not implemented a full
consolidation that resulted in a facility closure. According to management, several
factors contributed to the lack of P&DC closures including potential impacts on
overnight service and stakeholder concerns.

In collaboration with management, the U.S. Postal Service Office of Inspector General
(OIG) developed an independent model to assess opportunities for mail processing
facility consolidations. The results of our model validated many of the consolidations
either implemented or considered. Also, the model indicated the potential for full
consolidation of the Daytona Beach P&DF into the Mid-Florida P&DC and the Huntsville
P&DF into the Birmingham P&DC and its associated annex.

Both of these consolidation opportunities ranked high on the OIG’s consolidation model
(see Appendix B for more information on the modeling results). Additional coordination
with management and visits to the facilities confirmed the potential for consolidation.
Based on the model and our site visits, we found the facilities were within a reasonable
proximity of each other (less than 100 miles), the consolidation would result in a net
upgrade in service, excess machine capacity exists at the gaining facility, and there is
excess floor space to accommodate any additional equipment needed for full
consolidation.

The Postal Accountability and Enhancement Act of 2006 (The Postal Act of 2006)3
strongly encourages the Postal Service to expeditiously move forward in its streamlining
efforts. This includes rationalizing the mail processing facility network and removing
excess processing capacity and space.

These consolidations should increase efficiency and reduce overall processing costs in
support of the Postal Service’s network streamlining efforts. Additionally, the
consolidations could result in an annual cost savings of $4,786,592. See Appendix C for
our calculation of monetary impact.

Postal Service Actions – Management was pursuing a partial consolidation of
originating mail from the Daytona Beach P&DF into the Mid-Florida P&DC; however,
they subsequently placed the initiative on hold. During the audit, management agreed to
conduct a feasibility study in accordance with Handbook PO-4084 for a full consolidation
of the Daytona Beach P&DF into the Mid-Florida P&DC.

Management also agreed excess space exists at the Birmingham P&DC and its annex;
however, they felt consolidating the Huntsville P&DF into the Birmingham P&DC was
less likely to be successful. See Appendix B for our detailed analysis of this topic.
3
    Public Law 109-435, December 2006
4
    Handbook PO-408, Area Mail Processing Guidelines, March 2008.



                                                        2
Southeast Area Processing and Distribution                                   EN-AR-10-006
 Center Consolidation



We recommend the vice president, Southeast Area Operations:

1. Complete the full consolidation feasibility study on the Daytona Beach Processing
   and Distribution Facility into the Mid-Florida Processing and Distribution Center and
   take action to eliminate excess space in the Mid-Florida Processing and Distribution
   Center.

2. Determine alternate uses of excess space at the Birmingham Processing and
   Distribution Center and annex.

Management’s Comments

Management agrees with the findings and recommendations, but could not confirm the
monetary impact. Specifically for recommendation 1, management initiated a feasibility
study for a full consolidation of the Daytona Beach P&DC into the Mid-Florida P&DC.
Management stated they could not confirm the monetary impact until a final decision is
made on the study, which they should complete by November 28, 2010. Additionally, for
recommendation 2, management agreed to determine best use of excess space at the
Birmingham P&DC and its annex by Quarter 3, Fiscal Year (FY) 2011. See Appendix D
for management comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael Magalski, director,
Network Optimization, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations



                                             3
Southeast Area Processing and Distribution       EN-AR-10-006
 Center Consolidation




Attachment

cc: Patrick R. Donahoe
    Steven J. Forte
    Corporate Audit and Response Management




                                             4
Southeast Area Processing and Distribution                                      EN-AR-10-006
 Center Consolidation


                                APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Excess capacity exists in the Postal Service’s mail-processing infrastructure due to
declines in First-Class Mail volume,5 increased competition to traditional mail products
from the private sector, increased automation, increased mailer participation in
discounts for mail preparation, and shifts in population demographics. These factors,
coupled with an aging processing infrastructure and network redundancies, make
operating efficiently difficult. Management has recognized the need for a comprehensive
redesign of its distribution and transportation network and is continually looking for
opportunities to improve its efficiency by making better use of space, staffing,
equipment, and transportation.

As part of the Postal Service’s Strategic Transformation Plan, 2006-2010, the Postal
Service articulated an initiative to improve its processing and transportation network.
The charter of the initiative was to create a flexible logistics network that reduces Postal
Service and customer costs, increases operational effectiveness, and improves
consistency of service.

On December 20, 2006, the Postal Act of 2006 was signed into law encouraging the
Postal Service to continue to streamline its networks. In June 2008, the Postal Service
submitted its Network Plan to Congress, as required by the Postal Act of 2006. The plan
described the Postal Service’s strategy for rationalizing its mail processing and
transportation networks. One of the core elements of the strategy is rationalizating the
P&DC network.

The Postal Service is actively examining opportunities to increase efficiency by
consolidating mail processing operations at its 268 P&DCs, allowing better use of its
resources. Between October 1, 2005, and July 1, 2010, the Postal Service implemented
42 area mail processing (AMP) consolidations; however, only two resulted in facility
closures.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the opportunity for full P&DC consolidations in the
Southeast Area. To accomplish our objective we:

          Reviewed completed and planned Postal Service mail processing facility
           consolidations.

          Examined criteria used to develop consolidation opportunities.


5
    Mail volume decreased by more than 25.6 billion pieces in FY 2009.



                                                           5
Southeast Area Processing and Distribution                                                                EN-AR-10-006
 Center Consolidation


       Assessed additional opportunities for full facility closures in the Southeast Area.

       Developed an independent consolidation model and applied its key indicators to
        identify opportunities for full processing facility consolidations. The indicators
        included: location, service, excess floor space, Delivery Barcode Sorter (DBCS)
        machine requirements, facility type, breakthrough productivity initiative (BPI),6
        mail processing efficiency, and opportunity cost.7

       Interviewed managers and obtained feedback on key indicators and criteria used
        for consolidation opportunities.

       Determined whether factors prevent the Postal Service from pursuing full
        consolidation opportunities.

       Conducted site visits in June 2010 at the Daytona Beach P&DF, the Jacksonville
        P&DC and Annex, the Mid-Florida P&DC, the Huntsville P&DF, the Gainesville
        P&DF, the Montgomery P&DF, and the Birmingham P&DC and Annex.

                                    Map 1. Southeast Area Site Visits


                                            Tennessee


                                                                               Huntsville
                                                        Atlanta

                                                                                   Birmingham
                                              Alabama
                              Mississippi
                                                           South Georgia



                                                                                     Jacksonville
                                                        North Florida
                                                                                        Gainesville
                                                                                        Daytona Beach

                                                                        Suncoast
                                                                                            Mid-Florida
                              Montgomery
                                                                                            Orlando
                                                                            South Florida




6
 Initiative to help focus and structure process improvement efforts to drive productivity growth.
7
 Opportunity hours are workhours used in excess of target workhours. Opportunity costs are calculated using the
opportunity hours times the average labor rate for clerks and mailhandlers.



                                                         6
Southeast Area Processing and Distribution                                    EN-AR-10-006
 Center Consolidation


We limited the scope of the audit to mail processing facilities in the Southeast Area and
relied on mail processing data from October 1, 2008, through September 30, 2009.

We conducted this performance audit from February through September 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 23, 2010, and included their
comments where appropriate.

We relied on data obtained from Facilities Management System, End-of-Run Report,
Service Standard Directory, Activity-Based Costing, and Enterprise Data Warehouse
Postal Service Systems. In addition, we used software to determine driving distances
between facilities. We assessed the reliability of the data by comparing data to source
documentation, conducting facility site visits, and discussing the data with management.
We determined that the data were sufficiently reliable for the purposes of this report.




                                             7
       Southeast Area Processing and Distribution                                           EN-AR-10-006
        Center Consolidation



       PRIOR AUDIT COVERAGE

                                                     Final
                               Report
    Report Title                                    Report                     Report Results
                               Number
                                                     Date
Post-Implementation         EN-AR-07-004            8/14/2007   The Postal Service consolidated all mail
Reviews of the Marina                                           processing operations from the Marina P&DC
P&DC Area Mail                                                  into the Los Angeles and Long Beach P&DCs.
Processing (AMP)                                                Although our audit disclosed the support and
Consolidation                                                   accuracy of the post-implementation review
                                                                could be improved, the efficiencies associated
                                                                with the consolidation resulted in considerable
                                                                savings. Our analysis provided confirming
                                                                evidence for reduced workhours, sale of the
                                                                facility, considerable cost savings, and
                                                                improved productivity. Management agreed with
                                                                our recommendations.
Kansas City, KS P&DC        EN-AR-08-001            1/14/2008   The Postal Service consolidated all mail
Consolidation                                                   processing operations from the Kansas City, KS
                                                                P&DC to the Kansas City, MO P&DC. The AMP
                                                                consolidation proposal was generally accurate
                                                                and supported. However, we identified
                                                                discrepancies in workhour savings, executive
                                                                and administrative schedule personnel savings,
                                                                transportation costs, and annual associated
                                                                savings. The AMP proposal, supporting
                                                                documentation, and our analysis provided
                                                                confirming evidence for the consolidation,
                                                                including opportunities to achieve savings,
                                                                eliminate excess capacity, and maintain service.
                                                                Management agreed with our
                                                                recommendations.
Status on the Postal        EN-AR-10-001            1/7/2010    The Postal Service has made some progress in
Service’s Network                                               streamlining its mail processing and
Rationalization                                                 transportation infrastructure. However, limited
Initiative                                                      progress has been made in implementing AMP
                                                                consolidations (only two have resulted in full
                                                                facility closures). Stakeholder opposition and
                                                                resistance to consolidations with First-Class
                                                                Mail (FCM) service downgrades were the
                                                                primary factors that delayed or resulted in the
                                                                disapproval of AMPs. Management agreed with
                                                                our recommendations.




                                                          8
       Southeast Area Processing and Distribution                                             EN-AR-10-006
        Center Consolidation



                                                     Final
                               Report
    Report Title                                    Report                      Report Results
                               Number
                                                     Date
Financial Crisis            GAO-10-538T             3/18/2010   The GAO has placed the Postal Service’s
Demands Aggressive                                              financial condition and outlook on their High-
Actions (Government                                             Risk List. Several key actions were identified
Accountability Office                                           during this testimony including consolidating
[GAO] Report)                                                   retail and processing networks. Specifically, the
                                                                GAO stated the need to remove excess
                                                                capacity in retail and mail processing facilities,
                                                                maximize use of lower cost retail alternatives,
                                                                and reduce the network of retail facilities.
Strategies and Options       GAO-10-455              4/2010     Making progress toward the Postal Service’s
to Facilitate Progress                                          financial viability would primarily involve taking
toward Financial                                                action on strategies and options to right-size
Viability (GAO Report)                                          operations, cut costs, and increase revenue.
                                                                Options in the mail processing area include
                                                                closing major mail processing facilities, relaxing
                                                                delivery standards to facilitate closures, and
                                                                introducing discounts for destination-entry FCM.
                                                                The Postal Service does not need and cannot
                                                                afford to maintain its costly excess infrastructure
                                                                capacity. Management agreed with most of the
                                                                key findings.




                                                          9
Southeast Area Processing and Distribution                                       EN-AR-10-006
 Center Consolidation


                             APPENDIX B: DETAILED ANALYSIS

Full Consolidation Opportunities

Opportunities exist for full consolidations in the Southeast Area. Management has
aggressively pursued partial facility consolidations but none that resulted in a facility
closure. Between July 1, 2008, and July 1, 2010, they have completed eight partial
consolidations and approved one additional consolidation for implementation.

The Postal Act of 2006 strongly encourages the Postal Service to expeditiously move
forward in its streamlining efforts. This includes rationalizing the Postal Service’s
facilities network and removing excess processing capacity and space.

Consolidation opportunities exist due to:

       Declines in mail volume.

       Excess equipment capacity.

       Increased competition.

       Shifts in population demographics.

       Excess space available at processing facilities.

       Close proximity of processing facilities to each other.

Additionally, according to management, they did not pursue full consolidations because
of potential impacts on overnight service and stakeholder concerns.

Consolidation Model

We developed a model using eight indicators to assess opportunities for full
consolidations in the plant network (see Table 1). We worked collaboratively with
management to develop the indicators but independently ran the model and assessed
results. We recognize that local knowledge is critical to validating and implementing
model results.




                                             10
Southeast Area Processing and Distribution                                                     EN-AR-10-006
 Center Consolidation



                               Table 1. Consolidation Model Indicators

                      Model Indicators                                   Definition
              Distance (miles)                           Distance between facilities in miles
              Net Service Changes                        The change in time it takes mail to get
                                                         from deposit at origin to delivery at
                                                         destination.
              Excess Floor Space (square feet)           Excess space on the workroom floor
                                                         at the gaining facility.
              Additional DBCS Machines                   DBCS machines needed at the
              needed                                     gaining facility to process mail volume
                                                         from the losing facility.
              Leased or Owned Facilities                 Whether the losing facility is leased or
                                                         owned by Postal Service
              BPI Efficiency Scores                      How efficiently a facility processes
              (percentage)                               mail.
              Mail Processing Efficiency Scores8         Additional mail volume a facility could
              (percentage)                               process while performing at 80-
                                                         percent efficiency.
              Efficiency Opportunity Cost                Difference between earned hours9
              (percentage)                               and actual hours at cost.

The results of our model validated many of the consolidations either implemented or
considered but also indicated the potential for full consolidation of the Daytona Beach
P&DF into the Mid-Florida P&DC (see Table 2 for details). Discussions with
management further validated this opportunity. The Postal Service was pursuing a
partial consolidation of originating mail from the Daytona Beach P&DF into the Mid-
Florida P&DC; however, in response to our modeling results management placed the
partial consolidation initiative on hold. Additionally, the Birmingham P&DC and its
associated annex have excess space that may provide an opportunity for a
consolidation or alternate use.




8
    Excess capacity available based on 80-percent efficiency.
9
    Earned hours are target workhours based on BPI categories.



                                                         11
Southeast Area Processing and Distribution                                                           EN-AR-10-006
 Center Consolidation



                         Table 2. Network Consolidation Model Ranking

                                                                            Score per OIG Model
            #         Losing Facility             Gaining Facility
                                                                             (Based on 100 Points)
                                                   FLORIDA
            1    Daytona Beach P&DF             Mid-Florida P&DC                         8710
            2    Daytona Beach P&DF             Orlando P&DC                             73
            3    Daytona Beach P&DF             Jacksonville P&DC                        71
                                                   ALABAMA
            1    Huntsville P&DF                Birmingham P&DC                          86
            2    Montgomery P&DF                Birmingham P&DC                          83

Daytona Beach P&DF into the Mid-Florida P&DC

Based on our consolidation model results, site visits to the facilities, and discussions
with management we determined that a full consolidation of the Daytona Beach P&DF
into the Mid-Florida P&DC may be possible. Specifically, the Mid-Florida P&DC has
sufficient space and mail processing capabilities to fully consolidate the Daytona Beach
P&DF’s more than 746 million annual mailpieces (FY 2009 volume rounded).

According to a Postal Service analysis, the Mid-Florida P&DC has approximately 32,000
square feet of unused space. During our visit to the Mid-Florida P&DC, we noted two
large contiguous spaces not being used; one space measured approximately 9,608
square feet (see Picture 1) and the other approximately 5,586 square feet.

                  Picture 1. Mid-Florida P&DC (9,608 Excess Square Feet)




10
  Each scenario is ranked on a 100-point scale based on the eight indicators. Higher points represent consolidation
scenarios with less risk to the Postal Service.



                                                         12
Southeast Area Processing and Distribution                                                                EN-AR-10-006
 Center Consolidation



We applied the eight indicators in our consolidation model to reach our conclusions (see
Table 3).
                       Table 3. Consolidation Model Indicators

                                                                  Daytona             Mid-Florida
                           Model Indicators
                                                                Beach P&DF              P&DC
                 Miles Between Facilities                            53                   53
                 Net Service Changes                                 ---                Upgrade
                 Excess Floor Space (square
                 feet)
                                                                      ---                32,143
                 Additional DBCS Machines
                 Needed
                                                                      ---                    4
                 Leased or Owned Facilities                       Owned                  Owned
                 BPI Efficiency Scores
                 (percentage)
                                                                     64                     58
                 Mail Processing Efficiency
                 Scores (percentage)
                                                                     19                     27
                 Efficiency Opportunity Cost
                 (percentage)
                                                                     40                     46

Various challenges exist in implementing a full consolidation of the Daytona P&DF into
the Mid-Florida P&DC. These challenges include relocation of Daytona’s carrier
operations, box units, and Bulk Mail Entry Unit. Additional challenges include service
standards/impacts and flats11 processing.

         Service Standards/Impacts: Based on current service standards, there would be
          a net upgrade of 1,536 (or 22 percent) ZIP Code pairs. These ZIP Code pairs
          include all classes of mail. However, FCM service would be adversely impacted.
          Specifically, overnight services would be downgraded to 2-day service in eight
          ZIP Code pairs. In addition, 2-day service would be downgraded to 3-day service
          in 46 ZIP Code pairs. The cost benefit of a full consolidation may justify
          consideration of the downgrades and/or a change in service standards for the
          impacted ZIP Codes (see Table 4).

                    Table 4. Daytona’s Full Consolidation Service Impacts

                  Daytona Beach P&DF into Mid-Florida P&DC Service Impacts
      Service       Service       Service          Service      Service     Service
     Upgrades     Downgrades     Upgrade        Downgrade      Upgrades    Downgrade
     Overnight     Overnight  All Other FCM    All Other FCM     Total       Total
         8             8             0               46          1,536        267



11
  The general term for flat-size mail, so called because the large mail is sorted without bending it so that the mail
remains flat.



                                                           13
Southeast Area Processing and Distribution                                      EN-AR-10-006
 Center Consolidation


       Flats Processing: The Mid-Florida P&DC currently sends its flats to Orlando
        Logistics & Distribution Center for processing. The consolidation of the Daytona
        P&DF into the Mid-Florida P&DC may present a challenge to timely flats
        processing.

Management agreed a full consolidation may be possible and announced a full
consolidation feasibility study on June 25, 2010. The consolidation of the Daytona
Beach P&DF into the Mid-Florida P&DC could increase efficiency and reduce overall
processing costs in support of Postal Service’s network streamlining efforts. Also, the
full consolidation could result in an additional cost savings of approximately $34 million
over 10 years for the Postal Service.

Huntsville P&DF into the Birmingham P&DC

Based on our consolidation model results, site visits to facilities, and discussions with
management we determined that a full consolidation of the Huntsville P&DF into the
Birmingham P&DC and its associated annex may be possible. Specifically, the
Birmingham P&DC and its annex have sufficient space to bring additional equipment in
order to process the more than 1 billion annual mailpieces (FY 2009 volume rounded)
the Huntsville P&DF processes.

The Birmingham P&DC and its associated annex have approximately 40,000 square
feet of excess space (see Table 5). Specifically, the Birmingham P&DC has a 7,000-
square foot mezzanine with a freight elevator that currently stores empty equipment
(see Picture 2). The mezzanine has the space to accommodate some mail processing
operations or other non-mail processing activity currently located on the main workroom
floor that may create space for additional mail processing equipment. Additionally, the
Birmingham Annex has 30,225 square feet of excess space and much of the space
stores empty equipment.

                     Table 5. Birmingham P&DC Excess Square Feet

                                   Excess Floor Space (Sq. Ft.)
    Birmingham P&DC Plant         Birmingham P&DC Mezzanine       Birmingham P&DC Annex
             2,559                           7,000                         30,225




                                                14
Southeast Area Processing and Distribution                                                        EN-AR-10-006
 Center Consolidation


                  Picture 2. Birmingham Mezzanine (7,000 Excess Square Feet)




We used eight indicators in our consolidation model to reach our conclusions (see Table
6).

                             Table 6: Consolidation Model Indicators

                                                            Huntsville       Birmingham
                       Model Indicators
                                                              P&DF         P&DC and Annex
               Miles between facilities                        92                92
               Net Service Changes                             ---             Upgrade
               Excess Floor Space (square
                                                               ---               39,78412
               feet)
               Additional DBCS Machines
                                                               ---                   4
               Needed
               Leased or Owned Facilities                    Owned          Owned/Leased13
               BPI Efficiency Scores
                                                               68                    59
               (percentage)
               Mail Processing Efficiency
                                                               15                    27
               Scores (percentage)
               Efficiency Opportunity Cost
                                                               34                    45
               (percentage)

Management agreed there was excess space at the Birmingham P&DC and annex but
expressed concerns with the consolidation of Huntsville P&DF into the Birmingham
P&DC. They noted the following challenges in implementing a full consolidation of the
Huntsville P&DF into the Birmingham P&DC:
12
   Excess floor space in Table 6 Includes excess space at the Birmingham P&DC, its mezzanine, and the associated
annex.
13
   The Birmingham P&DC in a Postal Service owned facility and the annex is a leased facility.



                                                       15
Southeast Area Processing and Distribution                                     EN-AR-10-006
 Center Consolidation



       Meeting overnight service standards because of possible late mail arrival.

       Processing mail in a two-story operation.

       Usability and layout of excess space at the annex.

       Inefficiencies due to possibly splitting same mail operations between the plant
        and its annex.

       Age and condition of facility and equipment.

Considering a full consolidation of the Huntsville P&DF into the Birmingham facility
could possibly increase efficiency and reduce overall processing costs. However, if the
consolidation is not in the best interests of the Postal Service, management should
identify alternate use for the excess space or terminate the leases at the Birmingham
P&DC annex.




                                             16
Southeast Area Processing and Distribution                                                      EN-AR-10-006
 Center Consolidation


                                  APPENDIX C: MONETARY IMPACTS

                      Finding                         Impact Category                  Amount
              Daytona Beach P&DF
                                               Funds Put to Better Use14              $33,984,345
              into Mid-Florida P&DC

                                               TOTAL                                  $33,984,345

NOTE:

Daytona Beach P&DF into Mid-Florida P&DC:

The consolidation of the Daytona Beach P&DF into the Mid-Florida P&DC could result
in an annual cost savings of $4,786,592. Specifically, we calculated cost avoidance for
eliminating 18 maintenance positions (31,086 annual workhours), 26 mailhandler
positions (45,510 annual workhours), and two Executive and Administrative Schedule
(EAS) positions (3,553 annual workhours). Taking attrition rates into account, we
estimated the maintenance and EAS positions could be eliminated in FY 2011, while the
mailhandler position eliminations would require a phase-in period of four years
beginning in FY 2011. Additionally, the calculated cost avoidance includes estimated
net fair market value of the facility and utility costs savings. It does not include potential
increased annual costs for transportation, one-time costs for employee relocation or
equipment relocation. All costs were escalated using appropriate factors published by
the Postal Service. We calculated the Present Value of cash flow savings over a ten-
year period, beginning in FY 2011.This amounted to $39,695,992.

We reduced this amount by the cost savings identified by management in the approved
originating AMP package (first-year savings $656,868). Management does not project
their AMP annual savings. However, for consistency we projected the $656,868 over 10
years (savings escalated and discounted) resulting in a projected savings of
$5,711,647. The OIG will claim the difference in the amount of $33,984,345 as
monetary impact.15




14
     Funds that could be used more efficiently by implementing recommended actions.
15
     Postal Service numbers do not take into account escalation and discount rates.



                                                         17
Southeast Area Processing and Distribution                 EN-AR-10-006
 Center Consolidation



                       APPENDIX D: MANAGEMENT’S COMMENTS




                                             18
Southeast Area Processing and Distribution        EN-AR-10-006
 Center Consolidation




                                             19
